OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTHERN
AFRICA’S AUDIT
MANAGEMENT PROGRAM
AUDIT REPORT NO. 4-674-09-003-P
JANUARY 29, 2009




PRETORIA, SOUTH AFRICA
January 29, 2009

MEMORANDUM

TO:                  USAID/Southern Africa, Mission Director, Carleene Dei

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Southern Africa’s Audit Management Program
                     (Report No. 4-674-09-003-P)

This memorandum transmits our report on the subject audit. In finalizing this report we
considered management comments on the draft report and have included those
comments in their entirety in appendix II.

The report includes seven recommendations to strengthen USAID/Southern Africa’s
audit management program. In response to the draft report, the mission agreed with all
seven recommendations and included corrective action plans and target completion
dates. Therefore, we consider that management decisions have been reached for
recommendation numbers 1 through 6. A management decision has not been reached
for recommendation no. 7 as discussed in the report.

Please provide my office written notice within 30 days of any additional information
related to the actions planned or taken to implement recommendation no. 7. In addition,
please provide USAID’s Office of Audit, Performance and Compliance Division
(M/CFO/APC) with the necessary documentation demonstrating that final action has
been taken on recommendation numbers 1 through 6.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0027, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Is USAID/Southern Africa properly implementing its reviews of
questioned costs identified in financial audits of its recipients? ........................................ 4

     Due Diligence Was Not Followed in
     Allowing $461,969 in Questioned Costs ..................................................................... 4

     Documents Supporting Management
     Decisions Were Not Always Readily
     Available...................................................................................................................... 6

Has USAID/Southern Africa implemented its audit management
program to address the weaknesses identified in Audit
Report No. 4-674-06-006-P?............................................................................................. 7

     Not all Required Audits Have Been
     Completed................................................................................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – List of Delinquent Audits as of December 31, 2008 .......................... 18
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit to
determine whether (1) USAID/Southern Africa properly implemented its reviews of
questioned costs identified in financial audits of its recipients, and (2) whether the
mission corrected the problems identified in the Audit of USAID/South Africa’s
Compliance with Financial Audit Requirements Regarding Foreign Recipients 1 (see
page 3).

In general, USAID/Southern Africa contracting officers are properly implementing
management reviews of questioned costs identified in financial audits of USAID
recipients. However, the audit identified areas where such reviews could be
strengthened, including an instance where due diligence was not performed in reaching
a management decision and the fact that documents supporting management decisions
were not always readily available. To address these problems and strengthen these
areas, RIG/Pretoria recommended that USAID/Southern Africa (1) formulate policies and
procedures to help ensure that due diligence is exercised in making management
decisions, (2) develop and implement a plan to periodically assess a sample of
management decisions to ensure that due diligence is exercised in making those
decisions, (3) require that contract and agreement officers maintain timely and sufficient
documentation in the official files, and (4) incorporate into the official agreement files all
documentation relevant to management decisions reviewed in this audit (see pages 4 to
7).

The audit also found that the mission had taken action to address the problems identified
in the previous audit report. However, several audits were still delinquent, including five
which were delinquent since December 31, 2005. To help USAID/Southern Africa
address the issue of delinquent audits, RIG/Pretoria recommended that the mission (1)
educate its cognizant technical officers and its recipients concerning USAID’s audit
requirements and their roles in the audit process, techniques for expediting audits, and
their need to monitor audits; (2) provide the mission director with a monthly report that
reflects the implementation of the mission’s audit plan; and (3) obtain and submit all
delinquent audits (see pages 7 to 9).

The mission agreed with the audit report’s recommendation and has reached a
management decision on recommendation nos. 1 through 6. For recommendation no. 7,
to obtain and submit all delinquent audit reports, a management decision can be
reached when the mission provides a target date for submitting all delinquent audits to
RIG/Pretoria (see pages 10 and 11).




1
    Audit Report No. 4-674-06-006-P, issued March 30, 2006.


                                                                                            1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants, and cooperative agreements to U.S.-based and foreign organizations. To help
ensure accountability over funds given to such organizations, USAID and the Office of
Inspector General (OIG) have jointly developed a financial audit program as outlined in
Automated Directives System (ADS) 591. ADS 591 requires that USAID missions, in
consultation with the cognizant Regional Inspector General (RIG), ensure that required
financial audits are conducted for foreign for-profit and nonprofit organizations and host
government entities (including any mission-funded activities in nonpresence countries),
and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits may be performed of foreign for-profit organizations
performing under direct awards or cost-reimbursable host country contracts and
subcontracts. 2 To ensure that such audits are performed in a timely and acceptable
manner, missions are required to develop annual audit plans. These audit plans are
populated from inventories maintained by the missions of all contracts, grants, and
cooperative agreements, including cash transfer and nonproject assistance grants;
awards financed with host-country-owned local currency; and activities in nonpresence
countries for use in determining audit requirements.

When financial audits of USAID recipients contain recommendations regarding
questioned costs, the cognizant contract or grant officer is responsible for making a
determination regarding the allowability of those costs. Questioned costs that are
deemed unallowable either must be recovered from the recipient or a legal basis for
nonrecovery must be established.

OIG had previously conducted an audit of the mission’s audit management program. 3
That audit identified areas where the mission’s audit management program could be
strengthened and contained recommendations for the mission to address.

For the period October 1, 2006, through February 28, 2008, the mission’s financial
audits included approximately $17.3 million in questioned costs.      Subsequent
management decisions made by USAID/Southern Africa contracting officers sustained
approximately $2.5 million of the originally questioned costs.




2
  According to a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, missions are required to annually assess risks to determine
whether financial audits are warranted; the results of these risk assessments must be shared with the
cognizant RIG office.
3
  Audit of USAID/South Africa’s Compliance with Financial Audit Requirements Regarding Foreign
Recipients, Audit Report No. 4-674-06-006-P, dated March 30, 2006.


                                                                                                          2
AUDIT OBJECTIVES
The Office of Inspector General conducted this audit as part of its fiscal year (FY) 2008
audit plan to answer the following questions:

   •   Is USAID/Southern Africa properly implementing its reviews of questioned costs
       identified in financial audits of its recipients?

   •   Has USAID/Southern Africa implemented its audit management program to
       address the weaknesses identified in Audit Report No. 4-674-06-006-P?

Appendix I contains a discussion of the audit scope and methodology.




                                                                                       3
AUDIT FINDINGS
Is USAID/Southern Africa properly implementing its reviews of
questioned costs identified in financial audits of its recipients?
In general, USAID/Southern Africa contracting officers are properly implementing
management reviews of questioned costs identified in financial audits of USAID
recipients. Overall, the mission’s contracting officers have developed a thorough system
for reviewing questioned costs. For example, the audit determined that, for the most
part:

      •    Decisions to allow or disallow questioned costs were properly analyzed and
           supported by documentation of the work performed.
      •    Contract files supporting management decisions contained necessary
           documentation.
      •    Management decisions were detailed, well documented, and complete (for 7 of
           10 audits reviewed).

While the Office of Acquisition and Assistance was generally effective in determining the
allowability of questioned costs, the audit team noted some areas where the process of
making management decisions could be strengthened. These issues are discussed in
detail below.

Due Diligence Was Not Followed in Allowing
$461,969 in Questioned Costs

Summary: Federal contracting officers are responsible for ensuring compliance with
contract terms and safeguarding the interest of the U.S. Government. Nevertheless, one
contracting/agreement officer did not exercise due diligence in making a management
decision allowing $461,969 in questioned costs. This situation arose from a variety of
factors, including a faulty assumption on the part of the agreement officer. As a result,
the recipient’s compliance with agreement terms was not ensured, and the interests of
the U.S. Government were not safeguarded.

Contracting officers play a significant role in U.S. Government contracting. They have
the authority to enter into, administer, or terminate contracts and make related
determinations and findings. 4 They also are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual
relationships. At the same time, contracting officers must also ensure that contractors
receive impartial, fair, and equitable treatment. 5 Similarly, although it is not explicitly
stated in the Automated Directives System (ADS), it would be a best practice for




4
    Federal Acquisition Regulation (FAR) 1.602-1(a)
5
    FAR 1.602-2


                                                                                          4
agreement officers 6 who execute grants and cooperative agreements to have parallel
responsibilities for ensuring compliance with the terms of the agreement, safeguarding
the interests of the United States and ensuring that recipients receive impartial, fair, and
equitable treatment.

While the audit determined that 9 of 10 sampled management decisions were well
researched and supported, the support for the remaining management decision did not
convincingly demonstrate that the recipient had complied with the terms of the
agreement and that the interests of the United States had been safeguarded. In fact,
there was no documentation regarding this management decision in the mission’s files
other than the decision memorandum itself. In allowing the entire $461,969 in
questioned costs, the agreement officer’s memorandum simply noted that the recipient
had completed all of the activities; that 4½ years had passed since the completion of the
agreement; and that no fraud, mismanagement, or abuse had been reported.
Discussions with the agreement officer, the supporting financial analyst, and a
representative from the technical office revealed that no effort had been made to contact
the recipient or to discuss the audit results with recipient management.

After these discussions with mission staff, the audit team called the recipient’s director of
finance, who indicated that no one from USAID had contacted the organization in
relation to the financial audit since September 2006. The director was puzzled by the
suggestion on the part of one mission official that it would be “fruitless” to contact the
recipient because it was unlikely that relevant recipient records and personnel would be
available. This would clearly not be the case, since—according to the director—the
organization was not only as big as ever, but was expanding to accommodate all of its
employees and programs. In addition, the director noted that the organization had
continued to work as a subrecipient on USAID agreements with large U.S.-based
recipients. Finally, the director indicated that he had supporting documentation
available.

In fulfilling their responsibility to ensure compliance with agreement terms and safeguard
the interests of the U.S. Government, it is important that contract and agreement officers
exercise due diligence in pursuing the information necessary to make an informed
decision. In fact, the FAR considers this so important that it stipulates that the
contracting officer shall not resolve any questioned costs without obtaining adequate
documentation on the costs and the contract auditor’s opinion on the allowability of the
costs. 7

Although the agreement officer who allowed the $461,969 in questioned costs had the
authority to determine whether those costs would be allowed, he did not, in the audit
team’s opinion, exercise the due diligence necessary to (1) determine whether the
recipient had complied with agreement terms and (2) safeguard the interests of the U.S.
Government in this contractual relationship. This situation arose primarily because of
the agreement officer’s assumption that the recipient would no longer have relevant
records and that the recipient personnel involved would no longer be available.


6
  Contracting officers have the authority to enter into, administer, or terminate contracts and make related
determinations and findings. Agreement officers have similar authority in relation to grants and cooperative
agreements.
7
  FAR 42.705-1(b)(4)(i)


                                                                                                          5
However, as indicated by the comments made by the recipient’s director of finance, this
assumption was not necessarily correct.

Additional contributing factors included that the agreement officer did not have a full
appreciation of the burden placed on him to safeguard the U.S. Government’s interest
and that there was a lack of oversight ensuring that due diligence was exercised. 8 This
audit makes the following recommendation to help ensure that due diligence is exercised
in making future management decisions.

    Recommendation No. 1: We recommend that USAID/Southern Africa formulate
    policies and procedures to help ensure that due diligence is exercised in making
    management decisions, that management decisions are well reasoned and that
    management decisions are well documented.

    Recommendation No. 2: We recommend that USAID/Southern Africa develop
    and implement a plan to periodically assess a sample of management decisions
    to ensure that due diligence is exercised in making management decisions, that
    management decisions are well reasoned and that management decisions are
    well documented.


Documents Supporting Management Decisions
Were Not Always Readily Available

Summary: The Government Accountability Office’s (GAO) Standards for Internal Control
in the Federal Government requires that all significant events be clearly documented and
that the documentation be readily available for examination. Nevertheless, the audit
found that some documents supporting the agreement officer’s management decisions
related to three recipients were stored as emails rather than being maintained in the
official files. As a result, USAID/Southern Africa ran the risk of not having complete
support for the decisions made on these agreements. This situation arose because the
agreement officer had not yet found time to place copies of the relevant emails in the
official files.

The GAO’s Standards for Internal Control in the Federal Government notes that all
transactions and other significant events need to be clearly documented, and that the
documentation should be readily available for examination. It goes on to say that all
documentation and records should be properly managed and maintained. It is especially
important to maintain complete documentation in agreement files, because the
documentation provides a complete background as a basis for informed decisions,
supports actions taken by the contracting/agreement officer, provides information for
reviews and investigations, and furnishes essential facts in the event of litigation or
congressional inquiries.




8
 The GAO recently reported that even though the USAID Office of Acquisition and Assistance’s Evaluation
Division is responsible for providing oversight, it has not provided adequate oversight in recent years and is
currently understaffed (GAO Report No. GAO-08-1059). In addition, the audit team noted that the mission
had not been conducting reviews of management decisions.


                                                                                                            6
Notwithstanding the above, the audit determined that some documents supporting one
agreement officer’s management decisions related to three recipients were maintained
in the form of emails rather than in the official files. According to the agreement officer,
this occurred because she had not yet incorporated those e-mails, some of which date
back to July and August 2007, into the official files.

It is important that e-mails and other communications that have bearing on management
decisions and other significant events be incorporated into the official files in a timely
manner. In the absence of complete official files, the mission may not be able to fully
support decisions made on contracts, grants, and cooperative agreements. Moreover, in
the event of transition, the absence of complete files may impede the ability of a new
contract/agreement officer to properly administer the contract, grant, or cooperative
agreement.

The audit makes the following recommendation to address this situation.

    Recommendation No. 3: We recommend that USAID/Southern Africa remind its
    contract and agreement officers of the importance of maintaining timely and
    sufficient documentation in the official files to provide a complete background as
    a basis for informed decisions, support actions taken by the
    contracting/agreement officer, provide information for reviews and investigations,
    and furnish essential facts in the event of litigation or congressional inquiries.

    Recommendation No. 4: We recommend that USAID/Southern Africa ensure
    that all documentation relevant to management decisions reviewed in this audit
    be incorporated into the official agreement files.


Has USAID/Southern Africa implemented its audit management
program to address the weaknesses identified in Audit Report
No. 4-674-06-006-P?
Except for the timely submission of required audit reports to OIG, USAID/Southern Africa
has implemented its audit management program to address the weaknesses identified in
Audit Report No. 4-674-06-006-P.

USAID/Southern Africa is responsible for developing and executing an audit plan to
ensure that required financial audits of recipients are identified, completed and submitted
to OIG in a timely manner. In a March 2006 audit report, 9 OIG determined that the
mission:

        1. Was not submitting audit reports within the required timeframes.

        2. Was not ensuring that a standard statement of work was used in every audit.

        3. Was not including awards requiring closeout in its audit plans.


9
 Audit of USAID/South Africa’s Compliance with Financial Audit Requirement Regarding Foreign
Recipients, audit report 4-674-06-006-P, dated March 30, 2006.


                                                                                               7
         4. Was not including host country contracts in its inventory of awards and audit
            plans.

In response to that audit report, the mission took a variety of actions, including
implementing and monitoring an audit tracking system, establishing controls to ensure
that each audit agreement contains a standard statement of work, and amending the
pertinent mission order to require that awards requiring closeout and host country
contracts be included in award inventories and annual audit plans. Although the
mission’s actions addressed points 2 through 4 above, the audit determined that the
mission was still not submitting audit reports within the required timeframes, as
discussed below.

Not All Required Audits
Have Been Completed

Summary: USAID ADS 591, states that USAID missions must submit audit reports of
foreign recipients to the cognizant regional inspector general (RIG) no later than 9
months after the end of the recipient’s fiscal year. However, USAID/Southern Africa did
not submit all the required audits in a timely manner. As of December 31, 2008, a total
of 12 required audits had not been submitted to RIG/Pretoria. A number of factors
contributed to this situation, including a lack of understanding on the part of recipients,
the failure of recipients to contract for an audit in a timely manner, and the relative
priority placed on the audit process by USAID cognizant technical officers. As a result,
required accountability over U.S. Government funds has not been achieved.

USAID ADS 591.3.2.1 requires that contacting/grant officers ensure that the responsible
RIG receives required audits of foreign prime recipients within 9 months after the end of
the fiscal year in which the expenditures were incurred. Nevertheless, the audit team
found that despite the changes that the mission made in response to the previous audit,
12 audits were still delinquent, including 5 audits that were delinquent as far back as
December 31, 2005. 10 These 12 delinquent audits are detailed in appendix III.

According to USAID/Southern Africa’s audit management officer, various factors
contributed to the delinquency of these audits, including the following:

     •   A lack of understanding on the part of recipients as to when audits need to be
         done.
     •   The failure of the recipient to contract for the audit in a timely manner.
     •   The relative priority placed by cognizant technical officers on monitoring the
         recipient audit process.
     •   Resource limitations at audit firms performing USAID audits.

As a result of these and other factors, the mission was not obtaining all of the required
audits in a timely manner and was not in compliance with the applicable ADS

10
  Two of the five delinquent audits were included in OIG’s March 2006 audit report (report no. 4-674-06-
006-P). Although a recommendation in that report requiring that the mission obtain and submit all
delinquent audit reports had received final action, audit fieldwork determined that two of the required
delinquent audits had not been done. USAID/Southern Africa first assumed responsibility for the two
remaining delinquent audits in October 2007.


                                                                                                      8
requirements. As more time passes after the end of a recipient’s fiscal year without
conducting an audit, the risk increases that documents, records and personnel vital to
the successful completion of such an audit might no longer be available. Finally, failure
to complete audits in a timely manner reduces the accountability over funds awarded to
recipients. The audit makes the following recommendations to address the issue of
delinquent audit reports.

   Recommendation No. 5: We recommend that USAID/Southern Africa establish
   procedures to ensure that all delinquent recipient contracted audits are
   completed in accordance with USAID policies and procedures, including
   periodically educating cognizant technical officers and recipients as to (1)
   USAID’s audit requirements and their roles in the audit process, (2) techniques
   that can be used to expedite the completion of audits, and (3) their need to
   monitor the audit process.

   Recommendation No. 6: We recommend that USAID/Southern Africa establish
   policies and procedures that provide the mission director with a monthly
   executive report that reflects the implementation of the mission’s audit plan by
   team, identifies delinquent and potentially delinquent audits, and highlights
   actions that must be taken to address delinquent and potentially delinquent
   audits.

   Recommendation No. 7: We recommend that USAID/Southern Africa obtain and
   submit final audit reports for all delinquent audits.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Southern Africa agreed with all seven
recommendations.     An evaluation of the management comments for each
recommendation is shown below.

In response to recommendation no. 1, the mission agreed to formulate policies and
procedures by April 30, 2009, to help ensure that due diligence is exercised in making
management decisions and that management decisions are well reasoned and well
documented.      These policies and procedures will also specify the roles and
responsibilities in terms of arriving at a management decision.           Therefore, a
management decision has been reached for recommendation no. 1.

In response to recommendation no. 2, concerning developing and implementing a plan
to periodically assess a sample of management decisions to ensure that due diligence is
exercised in making decisions and that management decisions are well reasoned and
well documented, the mission agreed and stated that it will include a review of
management decisions as part of the Federal Managers Financial Integrity Act process.
A sampling of management decisions will be reviewed and completed by July 30, 2009.
Therefore, a management decision has been reached for recommendation no. 2.

In response to recommendation no. 3, the mission agreed to remind its contracting and
agreement officers of the importance of maintaining timely and sufficient documentation
in the official files. The mission stated that it will distribute, within a week of receipt, a
copy of the final report for this audit to the agreement officers within the mission as a
reminder. Therefore, a management decision has been reached for recommendation
no. 3.

In response to recommendation no. 4, the mission agreed to ensure that all
documentation relevant to management decisions reviewed in this audit is incorporated
into the official agreement files. The mission plans to have cognizant agreement officers
review their management decision files audited by RIG, include in those files
documentation that may currently be stored in the form of emails, and acknowledge that
they have completed the review in an additional memo to the contract file by April 1,
2009. Therefore a management decision has been reached for recommendation no. 4.

In response to recommendation no. 5, the mission agreed to develop policies and
procedures by April 30, 2009 to improve the mission’s compliance in obtaining timely
audit reports. These policies and procedures will include periodically educating
cognizant technical officers and recipients on audit requirements, roles in audit process,
techniques to expedite completion of audits and the need to monitor the audit process.
Therefore, a management decision has been reached for recommendation no. 5.

In response to recommendation no. 6, the mission agreed to develop policies and
procedures that provide the mission director with a monthly executive report that reflects
the implementation of the mission’s audit plan by team, identifies delinquent and



                                                                                           10
potentially delinquent audits, and highlights actions taken to address delinquent and
potentially delinquent audits.    The mission plans to develop such policies and
procedures by April 30, 2009. Therefore, a management decision has been reached for
recommendation no. 6.

In response to recommendation no. 7, to obtain and submit final audit reports for all
delinquent audits, the mission agreed with the recommendation. For 10 of the 15
delinquent audits identified in the draft audit report, the mission plans to press the
recipients to have their delinquent audits completed by April 30, 2009. An additional
three audit reports have been submitted to RIG subsequent to the issuance of the draft
audit report. As a result, these audits will not be included in the final audit report’s listing
of delinquent audits, thereby reducing the number of outstanding audits from 15 to 12.
For the remaining two audits (IUCN – The World Conservation Union and the Institute
for Democracy in South Africa), the mission plans to determine by February 28, 2009, if
the audits can be obtained. Once this is determined and a target date is set for
submitting the audit reports to RIG, a management decision can be reached for this
recommendation.

Appendix II contains management comments in their entirety.




                                                                                             11
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Fieldwork was conducted at USAID/Southern Africa from May 7 to October 10, 2008.
The first objective of the audit was to determine whether USAID/Southern Africa properly
implemented its reviews of questioned costs identified in financial audits of its recipients.
The second objective was to determine whether USAID/Southern Africa took corrective
actions on the eight recommendations identified in the Audit of USAID/South Africa’s
Compliance with Financial Audit Requirements Regarding Foreign Recipients, Audit
Report No. 4-674-06-006-P, issued March 30, 2006.

In performing the audit, we identified 20 financial audits that were issued to
USAID/Southern Africa or its client missions from October 1, 2006, to February 28,
2008. These audits had a total balance of $17,282,282 in questioned costs ($6,116,174
in ineligible costs and $11,166,108 in unsupported costs).

Methodology
To accomplish our first objective, we compiled and analyzed the questioned costs and
findings incurred from a judgmental sample of 10 financial audit reports issued between
October 1, 2006, and February 28, 2008, for programs in countries supported by the
contracting officers at USAID/Southern Africa.

In planning and performing the audit, we tested and assessed significant management
controls related to USAID/Southern Africa’s Office of Acquisition and Assistance process
for reaching a management decision for questioned costs. The testing and assessment
of management controls included a determination of whether management decisions
were reached within 6 months of issuance of an audit recommendation as required by
the Automated Directives System (ADS).

For the first audit objective, of the 20 financial audits issued to the mission, we selected
a judgmental sample of 10 financial audits for review. We interviewed mission officials,
including cognizant technical officers, financial management officers, and contracting
and agreement officers. We reviewed management decisions for recommendations that
have been closed and examined the type of evidence that was received by the
contracting officers to reach a management decision and close the recommendations.
We reviewed U.S. Government regulations, USAID’s ADS, and other relevant criteria.
We also obtained and reviewed contract files and the mission’s audit plan tracking sheet.




                                                                                          12
                                                                              APPENDIX I


Our work for the second objective covered financial audit requirements for
USAID/Southern Africa’s awards to foreign recipients. The audit work focused on
determining whether (1) the mission took corrective actions on recommendations in the
prior audit report, (2) there was a change in the number delinquent audits, (3) there was
a change in the list of expired awards requiring closeouts, and (4) there were host
country contracts that were not included in the award inventories.

We also obtained and reviewed the previous audit report, examined USAID/Southern
Africa’s supporting documentation for closing the eight recommendations in that report,
and interviewed mission officials. We reviewed and analyzed USAID/Southern Africa
annual audit plans and award inventories submitted to RIG/Pretoria.

The nature of this audit did not lend itself to materiality thresholds; therefore, none were
developed.




                                                                                         13
                                                                          APPENDIX II



MANAGEMENT COMMENTS


                                                 UNITED STATES GOVERNMENT
                                                           MEMORANDUM

DATE            :            December 31, 2008


TO             :             Nathan Lokos – Regional Inspector General


FROM            :            Carleene Dei – Mission Director /s/

                             Management Comments to Draft Audit Report No. 4-674-08-
SUBJECT         :            XXX-P – Audit of USAID/Southern Africa’s Audit Management
                             Program


USAID/Southern Africa appreciates the opportunity to provide comments on the subject,
draft audit report.

Recommendation No. 1: We recommend that USAID/Southern Africa formulate
policies and procedures to help ensure that due diligence is exercised in making
management decisions, that management decisions are well reasoned and that
management decisions are well documented.

       USAID/Southern Africa agrees with Recommendation No. 1. USAID/Southern
       Africa agrees to formulate guidance regarding the requirements for exercising due
       diligence and documenting management decisions, as well as specifying the roles
       and responsibilities in terms of arriving at a management decision. The Mission
       expects to complete final action on this recommendation by April 30, 2009.
       USAID/Southern Africa notes that the audit found that in 9 out of 10 management
       decisions sampled, the decisions were well researched and supported. The basis
       for this recommendation is one management decision where the auditors
       disagreed with the rationale for the decision.




                                                                                     14
                                                                            APPENDIX II


Recommendation No. 2: We recommend that USAID/Southern Africa develop and
implement a plan to periodically assess a sample of management decisions to ensure
that due diligence is exercised in making management decisions, that management
decisions are well reasoned and that management decisions are well documented.

      USAID/Southern Africa agrees with Recommendation No. 2. USAID/Southern
      Africa agrees to include a review of management decisions as part of the FMFIA
      process (a sampling of management decisions will be reviewed and completed by
      7/30/2009). However, USAID/Southern Africa wishes to reiterate that this audit
      concluded that 9 out of 10 sampled management decisions were well researched
      and supported.

      In the case of the tenth management decision, the audit report found that allowing
      $461,969 in costs under a four-year old audit of READ Education Trust was not
      well reasoned and well documented. USAID/Southern Africa does not agree that
      this management decision reflects a lack of due diligence or falls outside the
      range of reasonableness. The decision was based on the fact that the audit was
      too untimely for USAID to make a fair determination of the amount owed and too
      untimely to have any significant probability that any funds that might have been
      determined to be owed could have been recovered. The Agreement Officer
      exercised his discretion in determining that the costs of pursuing any recovery
      outweighed the benefit.

Recommendation No. 3: We recommend that USAID/Southern Africa remind its
contracting and agreement officers of the importance of maintaining timely and
sufficient documentation in the official files to provide a complete background as a
basis for informed decisions, support actions taken by the contracting/agreement
officers, provide information for reviews and investigations and furnish essential
facts in the event of litigation or congressional inquiries.

      USAID/Southern Africa agrees with Recommendation No. 3 and will distribute,
      within a week of receipt, a copy of the final audit report to the agreement officers
      within the Mission as a reminder.

Recommendation No. 4: We recommend that USAID/Southern Africa ensure that
all documentation relevant to management decisions reviewed in this audit be
incorporated into the official agreement files.

      USAID/Southern Africa agrees with Recommendation No. 4. USAID/Southern
      Africa agrees that all critical documentation should be placed in the official
      agreement files. By April 1, 2009, the cognizant agreement officers will review
      their management decision files audited by the RIG, include documentation that
      may currently be stored in the form of emails, and acknowledge that they have
      completed the review in an additional memo to the contract file.




                                                                                       15
                                                                            APPENDIX II


Recommendation No. 5: We recommend that USAID/Southern Africa establish
procedures to ensure that all delinquent recipient contracted audits are completed
in accordance with USAID policies and procedures, including periodically educating
cognizant technical officers and recipients as to (1) USAID’s audit requirements and
their roles in the audit process, (2) techniques that can be used to expedite the
completion of audits, and (3) their need to monitor the audit process.

      USAID/Southern Africa agrees with Recommendation No. 5. The Mission’s
      Regional Office of Acquisition and Assistance, Financial Management Office,
      and Program Office plan to collaborate on the development of policies and
      procedures to improve the mission’s compliance in obtaining timely audit
      reports. The procedures shall include steps to periodically educate cognizant
      technical officers and recipients on audit requirements, roles in the audit process,
      techniques to expedite the completion of audits, and the need to monitor the audit
      process. The Mission expects the procedures to be completed by April 30, 2009.
      However, USAID/Southern Africa notes that some delays in completing audits
      are the result of lack of performance by the local audit firms and it may not be
      possible to meet the audit completion guidelines without addressing this issue.


Recommendation No. 6: We recommend that USAID/Southern Africa establish
policies and procedures that provide the mission director with a monthly executive
report that reflects the implementation of the mission’s audit plan by team,
identifies delinquent and potentially delinquent audits, and highlights actions that
must be taken to address delinquent and potentially delinquent audits.

      USAID/Southern Africa agrees with Recommendation No. 6. The Mission’s
      financial management office plans to develop policies and procedures to provide
      the Mission Director with a monthly executive report that reflects the
      implementation of the Mission’s audit plan by team, identifies delinquent and
      potentially delinquent audits, and highlights actions that must be taken to address
      delinquent and potentially delinquent audits. The Mission expects the policies
      and procedures to be completed by April 30, 2009.

Recommendation No. 7: We recommend that USAID/Southern Africa obtain and
submit final audit reports for all delinquent audits.

      USAID/Southern Africa agrees with Recommendation No. 7. The Mission plans
      to approach IUCN – The World Conservation Union and the Institute for
      Democracy in South Africa to determine the feasibility of obtaining audits that
      date back to 2003. The Mission will approach these former recipients by January
      31, 2009 and determine whether audits can be obtained by February 28, 2009.

      Since the draft audit report was issued, the mission received and submitted to the
      Regional Inspector General audit reports from Mobile Task Team on HIV/AIDS,
      Broad Reach Health Care, and Right to Care. The mission will continue to press



                                                                                       16
                                                                   APPENDIX II


the other recipients, whose audits are at various stages of completion, to have
their delinquent audits submitted by April 30, 2009.

The Mission would like to correct an entry to the list of delinquent audits
presented in Appendix III. Under Right to Care, agreement number 674-A-00-08-
00007-00 should not have been included as delinquent. That agreement started
October 1, 2007. Additionally, Right to Care’s fiscal year end is September 30.
The December 31, 2007 date in Appendix III corresponds to the end date for
agreement 674-CA-674-A-00-02-00018-35. Accordingly, the audit for number
674-A-00-08-00007-00 is due June 30, 2009 and is not delinquent as of this audit.
The audit for agreement 674-CA-674-A-00-02-00018-35 was delinquent at the
time of the audit. As noted in the prior paragraph, that audit has now been
received.




                                                                              17
                                                                                            APPENDIX III



               LIST OF DELINQUENT AUDITS
                AS OF DECEMBER 31, 2008

              Recipient Name                      Agreement No. Per Mission         Fiscal       Report
                                                         Audit Plan                 Year End     Due Date    Notes

 Audits Delinquent as of December 31, 2005
 IUCN – The World Conservation Union             690-0283-A-00-5950                 31-Mar-03    31-Dec-03    1
 Institute for Democracy in South Africa         690-G-00-02-00254-00               31-Dec-03    30-Sep-04    1
 Education Opportunities Council                 CA-674-0309-A-00-0038              31-Dec-03    30-Sep-04    2
 Education Opportunities Council                 CA-674-0309-A-00-0038              31-Dec-04    30-Sep-05    2
 South African Institute of Race Relations       CA-674-0309-A-00-0039              31-Mar-04    31-Dec-04    2

 Audits Delinquent as of December 31, 2007
 Wits Health                                     674-CA-674-A-00-05-00003-9         31-Dec-05    30-Sep-06    2
                                                 674-CA-674-A-00-05-00004-9
                                                 PIL 674-0320-G-5053-10
 Mindset Network                                 674-A-00-04-00071-00               31-Dec-06    30-Sep-07
 Wits Health                                     674-CA-674-A-00-05-00003-9         31-Dec-06    30-Sep-07    2
                                                 674-CA-674-A-00-05-00004-9

 Audits Delinquent as of December 31, 2008
 Foundation for Professional Development         674-A-00-08-00006-00               31-Dec-07    30-Sep-08
 Khulisa Management Services                     674-G-00-07-00018-00               31-Dec-07    30-Sep-08
                                                 674-CO-674-C-00-06-00014
                                                 674-CA-674-A-00-08-00010
 Mindset Network                                 674-A-00-04-00071-00               31-Dec-07    30-Sep-08
 Wits Health                                     674-CA-674-A-00-05-00003-9         31-Dec-07    30-Sep-08    2
                                                 674-CA-674-A-00-05-00004-9
                                                 674-A-00-08-00009-00
                                                 674-A-00-08-00005-00

Notes:   1. USAID/Southern Africa first assumed responsibility for this audit in October 2007.
         2. According to mission officials, this audit is in progress.




                                                                                                      18
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
